            Office of Inspector General




March 29, 2005

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:         Audit Report – Processing of Overseas Military Absentee Ballots
                 (Report Number NO-AR-05-007)

This report presents the results of our review of the Processing of Overseas Military
Absentee Ballots (Project Number 04WG012NO000). The Postal Service vice
president, Network Operations Management, requested the audit. Our objective was to
assess the Postal Service’s performance in processing overseas military absentee
ballots for the national election in November 2004. We conducted the audit jointly with
the Postal Service’s International Transportation and Network Support group and the
Intelligent Mail Implementation group.

The Postal Service’s special procedures expedited the processing and delivery of
military absentee ballots for the 2004 national election. In addition, the Postal Service
and the Military Postal Service did a commendable job in ensuring military absentee
ballots were postmarked. However, some challenges remain in counting and tracking
absentee ballots and gaining compliance from local election offices on time frames for
delivering ballots.

The Postal Service did not collect $121,062 in additional postage for using Express Mail
to expedite military absentee ballots. These funds represent potential additional
revenue and will be reported as such in our Semiannual Report to Congress. We made
two recommendations and two suggestions in this report.

Management generally agreed with our findings and recommendations. However, they
do not intend to pursue reimbursement from the Department of Defense (DOD) for use
of Express Mail service. Postal Service management indicated that during the planning
process they made a conscious decision to absorb the Express Mail expense as a part
of a collaborative effort with the DOD. Since this intent was communicated to the DOD,
they believe it would not be prudent or ethical to request reimbursement. Management
generally agreed with our suggestions; however, they indicated the Federal Voting
Assistance Program (FVAP) office–not the Postal Service–is the preferred organization
to address the suggestions. Given the rationale provided, we consider management’s
comments responsive to our recommendations and suggestions. Management’s
comments and our evaluation of these comments are included in the report.

  1735 N Lynn St.
  Arlington, VA 22209-2020
  (703) 248-2100
  Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Robert J.
Batta, Director, Network Operations – Processing, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Michael J. Nappi
    Thomas A. Guttadauro
    James L. Larkin
    Steve M. Bloom
    Steven R. Phelps
Processing of Overseas Military                               NO-AR-05-007
 Absentee Ballots




                                  TABLE OF CONTENTS
 Executive Summary                                                      i

 Part I

 Introduction                                                          1

      Background                                                       1
      Objective, Scope, and Methodology                                3
      Prior Audit Coverage                                             4

 Part II

 Audit Results                                                         5

      Assessment of Postal Service Performance                         5
        Expedited Processing and Delivery of Ballots                   5
        Prograde Ballots                                               5
        Retrograde Ballots Processed Using First-Class Mail            6
        Retrograde Ballots Processed Using Express Mail                6
        Counting and Tracking of Ballots                               7
      Recommendation                                                   7
      Management’s Comments                                            7
      Evaluation of Management’s Comments                              7

      Uncollected Postage Revenue                                      8
      Recommendation                                                   9
      Management’s Comments                                            9
      Evaluation of Management’s Comments                              9

 Other Matters                                                        10

      Effective Postmark Controls                                     10
      Tight Time Frames for Prograde Ballots                          11
      Unnecessary Payment of Postage                                  11
      Suggestions                                                     12
      Management’s Comments                                           12
      Evaluation of Management’s Comments                             12

 Appendix A. Sampling Methodology                                     13
 Appendix B. Management’s Comments                                    14
Processing of Overseas Military                                             NO-AR-05-007
 Absentee Ballots




 Tables and Charts

      Chart 1. Special Overseas Military Absentee Ballot Procedures for              2
               the 2004 Election

      Chart 2. Overseas Military Absentee Ballot First-Class Mail:
               Summary of Processing and Delivery Performance                        5

      Table 1. Delivery Performance for Overseas Military Absentee Ballot
               First-Class Mail                                                      6

      Table 2. Overseas Military Absentee Ballot Delivery Performance:
               Express Mail Compared to First-Class Mail Processing                  6

     Table 3. Uncollected Postage Revenue Calculation                                8

      Chart 3. Prograde Military Overseas Absentee Ballots Processed                11
               Between September 20 and November 2, 2004
Processing of Overseas Military                                                                     NO-AR-05-007
 Absentee Ballots



                                      EXECUTIVE SUMMARY

 Introduction                     The Office of Inspector General completed a nationwide
                                  audit of the Postal Service’s performance in processing
                                  overseas military absentee ballots for the national election
                                  in November 2004. Our review focused on military
                                  absentee ballot operations at international service centers in
                                  New York, New York; San Francisco, California; and Miami,
                                  Florida. The Postal Service vice president, Network
                                  Operations Management, requested the audit. We
                                  conducted the audit jointly with the Postal Service
                                  International Transportation and Network Support group and
                                  the Intelligent Mail Implementation group.

 Results in Brief                 The Postal Service’s special procedures expedited the
                                  processing and delivery of military absentee ballots for the
                                  2004 national election. However, the counting and tracking
                                  of absentee ballots could be strengthened. The Postal
                                  Service’s overall success in processing the military
                                  absentee ballots resulted from excellent planning,
                                  execution, and effective partnering with the Military Postal
                                  Service (MPS). This reduced the potential for delinquent
                                  and uncounted military ballots caused by mail processing
                                  delays.

                                  The Postal Service did not collect $121,062 incurred by
                                  using Express Mail to expedite the processing and delivery
                                  of overseas military absentee ballots.

 Summary of                       We made two recommendations to address issues identified
 Recommendations                  during our audit. We recommended Postal Service
                                  management use the Confirm1 service to improve the
                                  tracking and monitoring of military absentee ballots and
                                  request reimbursement from the Department of Defense
                                  (DOD) for $121,062 incurred by using Express Mail service.
                                  We also suggested management provide feedback to local
                                  election officials, military service members, and the MPS on
                                  the importance of adhering to the recommended time
                                  frames for requesting and mailing ballots, and inform


1
  Confirm is a service that provides information on when the Postal Service sorts mail on automated processing
equipment. It uses a PLANET code (Postal Alpha Numeric Encoding Technology, a 12-digit barcode) to track mail
electronically. Confirm provides electronic tracking information about outgoing or incoming First-Class Mail and
Standard Mail (A) mailpieces.



                                                         i
Processing of Overseas Military                                                        NO-AR-05-007
 Absentee Ballots


                                  local election officials of the military postage exemption for
                                  balloting materials.

 Summary of                       Management generally agreed with our findings and
 Management’s                     recommendations. However, they stated they do not intend
 Comments                         to pursue reimbursement from the DOD for use of Express
                                  Mail service. Postal Service management indicated that
                                  during the planning process they made a conscious
                                  decision to absorb the Express Mail expense as part of a
                                  collaborative effort with the DOD. Since this intent was
                                  communicated to the DOD, they believe it would not be
                                  prudent or ethical to request reimbursement. Also,
                                  management generally agreed with our suggestions.
                                  However, they indicated the Federal Voting Assistance
                                  Program (FVAP) office–not the Postal Service–is the
                                  preferred organization to address the suggestions.
                                  Management’s comments are included in Appendix B of this
                                  report in their entirety.

 Overall Evaluation of            Given the rationale provided, we consider management’s
 Management’s                     comments responsive to our recommendations and
 Comments                         suggestions.




                                                   ii
Processing of Overseas Military                                                            NO-AR-05-007
 Absentee Ballots


                                               INTRODUCTION
 Background                       The overseas military absentee voting process is a shared
                                  responsibility among four entities.

                                      •    Overseas service members, who request and
                                           complete the ballots.

                                      •    Local election offices, which send out blank ballots
                                           and receive completed ballots.

                                      •    The Postal Service, which processes military
                                           absentee ballots at international service centers
                                           (ISCs) and processing and distribution centers
                                           (P&DCs). Processing includes both prograde and
                                           retrograde operations. Prograde operations are the
                                           mailing of absentee ballots from local election offices
                                           to service members located overseas. Retrograde
                                           operations are the return of completed absentee
                                           ballots to election officials.

                                      •    The DOD’s MPS which ensures the ballots are given
                                           priority handling at the Army/Air Force Post Office
                                           (APO) and Fleet Post Office (FPO).

                                  The diagram below outlines the overseas military absentee
                                  ballot process.

                                Overseas Military Absentee Ballot Process

                                                 Request Ballot                           MPS
                                                                                          USPS

       Start

                                     Prograde
                                     Ballot



   OVERSEAS           APO/FPO                                     P & DC
                                                    ISC                         LOCAL
    SERVICE
                                                                               ELECTION
    MEMBER
                                                                                OFFICE
                                  Retrograde
                                  Ballot


                   APO/FPO                          ISC           P & DC
                                                                               Finish




                                                          1
Processing of Overseas Military                                                             NO-AR-05-007
 Absentee Ballots



                                  During the 2000 national election, there were highly
                                  publicized reports of delayed and uncounted military
                                  absentee ballot mail. News media also reported election
                                  officials disqualified military absentee ballots on the grounds
                                  that they lacked postmarks. As a result, the Postal Service
                                  and the DOD’s MPS combined efforts to expedite the
                                  processing and delivery of absentee ballots to and from
                                  overseas military post offices for the November 2004
                                  election.

                                  On August 10, 2004, the Postal Service adopted special
                                  procedures for processing absentee ballots. The goal of
                                  these procedures was to expedite the handling of this mail
                                  so that all absentee ballots from overseas service members
                                  would be counted in the November 2004 election. Chart 1
                                  outlines these procedures and any subsequent revisions
                                  made during the process.

                                     Chart 1. Special Overseas Military Absentee Ballot
                                              Procedures for the 2004 Election

                                               Original Plan                   Revisions During
                                             (August 10, 2004)                     Process

                                             Prograde (Export)                 Prograde (Export)
                                   Notify election officials of special
                                   process, September 1–10, 2004.                       _
                                   Collect ballots from election offices   Express Mail processing
                                   and process through Express Mail,       extended to October 23,
                                   September 20–October 8, 2004.           2004.

                                           Retrograde (Import)                Retrograde (Import)
                                   Normal processing before October 1,
                                   2004, and after November 12, 2004.                   _
                                   Expedited processing
                                   October 1–29, 2004.                                  _
                                   Express Mail processing                 Express Mail processing
                                   October 30–November 1, 2004.            extended from October 30–
                                                                           November 12, 2004.
                                   Expedited processing
                                   November 2–12, 2004.                                 _




                                                       2
Processing of Overseas Military                                                                   NO-AR-05-007
 Absentee Ballots




    Objective, Scope, and         The objective of our audit was to assess the Postal
    Methodology                   Service’s performance in processing overseas military
                                  absentee ballots for the November 2004 election. To
                                  assess performance, we reviewed policies and procedures
                                  for processing military absentee ballots, observed the
                                  processing of the ballots, and analyzed delivery
                                  performance for ballots sent through First-Class and
                                  Express Mail. We conducted this audit jointly with the
                                  Postal Service International Transportation and Network
                                  Support group and the Intelligent Mail Implementation
                                  group.

                                  Our review focused on military absentee ballot processing
                                  at the following ISCs between October 1 and November 12,
                                  2004: New York, New York; San Francisco, California; and
                                  Miami, Florida. We interviewed officials at the three ISCs
                                  and Postal Service Headquarters and MPS officials. We did
                                  not review military absentee ballot operations overseas or at
                                  the district or local levels. In addition, we did not examine
                                  the requesting of ballots from the local election offices.

                                   We relied on the controls surrounding the Postal Service
                                  operational and application systems (including the Product
                                  Tracking System) to obtain the delivery performance data
                                  for Confirm/PLANET Code2 and Express Mail pieces. We
                                  did not test the validity of controls over these systems.
                                  However, we verified the accuracy and completeness of the
                                  data. Nothing came to our attention to suggest the data
                                  used was unreliable.

                                  We conducted this audit from September 2004 through
                                  March 2005 in accordance with generally accepted
                                  government auditing standards and included such tests of
                                  internal controls as were considered necessary under the
                                  circumstances. We discussed our observations and
                                  conclusions with appropriate management officials and
                                  included their comments where appropriate.




2
  A PLANET (Postal Alpha Numeric Encoding Technology) code is a 12-digit barcode. The Postal Service’s barcode
sorting equipment reads the barcode and makes mail processing information (such as when the date a mailpiece was
processed) available to a Centralized Postal Service network server. The server can than be accessed to determine
the delivery status of a mailpiece.



                                                       3
Processing of Overseas Military                                                                       NO-AR-05-007
 Absentee Ballots


    Prior Audit Coverage             During 2001, the Inspector General, DOD and the
                                     Government Accountability Office (GAO)3 reviewed issues
                                     related to overseas military absentee ballots.

                                     An Inspector General, DOD report titled Overseas Absentee
                                     Ballot Handling in DOD (Report Number D-2001-145, dated
                                     June 22, 2001) reviewed DOD policies and procedures for
                                     moving First-Class Mail at selected overseas locations. The
                                     audit uncovered no systemic MPS problems that would
                                     have unreasonably affected ballot handling. The report also
                                     stated the timeliness of mailing voting materials could
                                     present a problem for overseas voters, considering the
                                     reality of moving First-Class Mail to and from overseas
                                     locations.

                                     A GAO report titled Voting Assistance to Military and
                                     Overseas Citizens Should be Improved (Report Number
                                     GAO-01-1026, dated September 28, 2001) addressed the
                                     concerns of military and overseas voters. Concerns
                                     included the lack of feedback from local jurisdictions about
                                     the status of their applications for registration of ballots and
                                     the short time frames many state and local jurisdictions
                                     have for sending and returning ballots.




3
    The General Accounting Office’s name changed to the Government Accountability Office effective July 7, 2004.



                                                           4
Processing of Overseas Military                                                                    NO-AR-05-007
 Absentee Ballots


                                           AUDIT RESULTS
    Assessment of           The Postal Service special procedures were effective in
    Postal Service          expediting the processing and delivery of overseas military
    Performance             absentee ballots for the November 2004 election. However, the
                            counting and tracking of absentee ballots could be strengthened.
                            The Postal Service’s overall success in processing the absentee
                            military ballots resulted from excellent planning, execution, and
                            effective partnering with the MPS. This reduced the potential for
                            delinquent and uncounted military ballots resulting from Postal
                            Service mail processing delays.

    Expedited               The Postal Service was successful in assisting the MPS in
    Processing and          speeding up the processing of overseas military absentee ballots.
    Delivery of Ballots     Processing these ballots by Express Mail reduced mail delivery
                            time frames by up to five days from normal First-Class Mail
                            processing. As shown in Chart 2, prograde (export) ballots were
                            expedited by up to two days and retrograde (import) ballots by up
                            to three days. Furthermore, retrograde ballots sent by normal
                            First-Class Mail met delivery standards between 84 and
                            95 percent of the time.

                            Chart 2. Overseas Military Absentee Ballot First-Class Mail: Summary of
                                     Processing and Delivery Performance

                                        Processing                       Delivery Performance

                               Prograde Ballots (transported       Saved up to two days
                                     as Express Mail)
                                    Retrograde Ballots             Achieved First-Class Mail
                                      (transported as              standards between 84 and
                                     First-Class Mail)             95 percent of the time
                                    Retrograde Ballots             Saved up to three days
                                      (transported as
                                       Express Mail)

    Prograde Ballots        Prograde ballots were consolidated at processing and distribution
                            centers and expedited to the three ISCs using Express Mail,
                            resulting in a savings of one to two days over First-Class Mail
                            processing.4




4
  We did not test prograde delivery performance. Expected savings are based on delivery standards for Express Mail
(one to two days) compared to First-Class Mail (one to three days).



                                                        5
Processing of Overseas Military                                                                         NO-AR-05-007
 Absentee Ballots



 Retrograde               Retrograde ballots received up to three days before the election
 Ballots                  were processed and delivered through the normal First-Class Mail
 Processed                stream. A judgmental sample5 of 11,644 retrograde ballots showed
 Using First-             the Postal Service’s compliance with First-Class Mail delivery
 Class Mail               standards for ballots sent from the three ISCs to local election
                          offices ranged from 84 to 95 percent. (See Table 1 below.)

                          Table 1. Delivery Performance for Overseas Military Absentee Ballot
                                   First-Class Mail


                                   Originating                                                Percentage
                                    Facility                  On Time            Late          On Time
                           New York                             1,336            256                84
                           San Francisco                        8,427            952                90
                           Miami                                 639              34                95

                              Note: Postal Service First-Class Mail standards range from one to three days.


 Retrograde               Overseas military absentee ballots received from October 30
 Ballots                  through November 12, 2004, were expedited to the local delivery
 Processed                units as Express Mail. As shown below, a judgmental sample of
 Using Express            5,1386 retrograde ballots in Express Mail envelopes showed that
 Mail                     sending ballots using Express Mail reduced Postal Service
                          processing times by up to three days over First-Class Mail delivery
                          standards. Furthermore, Express Mail expedited 94 percent of
                          these ballots by at least one day over First-Class Mail delivery
                          standards.


                             Table 2. Overseas Military Absentee Ballot Delivery Performance:
                                      Express Mail Compared to First-Class Mail Processing

                                                                                     New
                                                        Miami    San Francisco       York      Totals     Percentage

                              Saved three days            3              44           665        712          14
                              Saved two days             11             351         1,934      2,296          45
                              Saved one day              10             195         1,598      1,803          35
                              Same day                    2              60           199        261           5
                              Delinquent                  2               5            59         66           1
                              Totals                     28             655         4,455      5,138         100

                                Note: Postal Service First-Class Mail standards range from one to three days.


5
  At our request, the Postal Service applied PLANET Codes to retrograde ballots at each of the three international
service centers. This allowed us to assess processing performance for each ballot using scans on automation
equipment. See Appendix A for the sample methodology.
6
  See Appendix A for the sample methodology.



                                                          6
Processing of Overseas Military                                                                          NO-AR-05-007
 Absentee Ballots



    Counting and               Postal Service controls to accurately count the number of ballots
    Tracking of Ballots        were ineffective. According to the Postal Service’s special
                               procedures, military absentee ballots were to be segregated and
                               run under a separate sort plan7 on automated processing
                               equipment to generate a separate piece count for military ballots.
                               However, Postal Service counts of military absentee ballots were
                               lower than projected.8 Low ballot counts occurred because
                               absentee ballots were processed:

                                    •   Before the separate sort plan was implemented.

                                    •   Under the incorrect sort plan.

                                    •   With regular military mail.

                               Segregating ballots from the normal mailstream is tedious and
                               time-consuming, and sharing responsibilities with the MPS and
                               local election offices reduced the Postal Service’s control over the
                               ballots. Gathering accurate data on ballot counts may not be a
                               realistic goal without a reliable tracking mechanism.

                               During the November 2000 election, some military and overseas
                               voters expressed frustration about not knowing when they could
                               expect a ballot. Without a reliable tracking mechanism, the Postal
                               Service cannot provide timely feedback or information about
                               ballots.

    Recommendation We recommend the vice president, Network Operations
                   Management:

                               1. Use the Confirm service to improve the counting and tracking
                                  of military absentee ballots.

    Management’s               Management agreed with our finding and recommendation. They
    Comments                   indicated they would use the Confirm service more extensively if a
                               similar collaboration between DOD and the Postal Service takes
                               place during the next presidential election.

    Evaluation of              Management’s comments are responsive to the recommendation.
    Management’s               Management’s planned actions should correct the issues
    Comments                   identified in the finding.

7
    A sort plan or scheme is a computer program that provides automated equipment with instructions.
8
    Because we were unable to validate Postal Service ballot counts, we did not include these numbers.



                                                           7
Processing of Overseas Military                                                                  NO-AR-05-007
 Absentee Ballots




    Uncollected Postage           Postal Service management did not charge the military for
    Revenue                       use of the Express Mail service. As part of the Postal
                                  Service’s special procedures for processing overseas
                                  military absentee ballots, they agreed to provide Express
                                  Mail service for absentee ballots mailed from overseas
                                  military post offices and ballots received at ISCs.9 As a
                                  result, the Postal Service lost potential additional revenues
                                  of $121,062 for Express Mail service provided to expedite
                                  the processing and delivery of overseas military absentee
                                  ballots. (See Table 3.)

                                  Table 3. Uncollected Postage Revenue Calculation


                                   Cost to mail Express Mail piece ……………………......  $ 13.65
                                   Total number of overseas absentee
                                     Express Mail pieces …………………………………..              8,869
                                   Uncollected postage revenue………………………….         $ 121,062
                                                                                   =======




                                       Retrograde military absentee ballots being processed for
                                              Express Mail by Postal Service employee.




9
 Under the Postal Service’s special procedures, ballots received between October 30 and November 12, 2004, were
expedited using Express Mail.



                                                       8
Processing of Overseas Military                                                    NO-AR-05-007
 Absentee Ballots




 Recommendation                   We recommend the vice president, Network Operations
                                  Management:

                                     2. Request reimbursement from the Department of
                                        Defense for $121,062 for the use of Express Mail
                                        service to expedite the processing and delivery of
                                        overseas military absentee ballots.

 Management’s                     Management generally agreed with our finding. However,
 Comments                         they do not intend to pursue reimbursement from the DOD
                                  for use of the Express Mail service. Postal Service
                                  management indicated that, during the planning process,
                                  they made a conscious decision to absorb the Express Mail
                                  expense as part of a collaborative effort with the DOD.
                                  Since this intent was communicated to the DOD, they
                                  believe it would not be prudent or ethical to request
                                  reimbursement.

 Evaluation of                    Given the rationale provided, we consider management’s
 Management’s                     comments responsive to our recommendation.
 Comments




                                                  9
Processing of Overseas Military                                                         NO-AR-05-007
 Absentee Ballots




 Other Matters                    In addition to the report findings, we identified other issues
                                  that warranted management’s attention. The Postal Service
                                  and the MPS did a commendable job in ensuring that
                                  military absentee ballots were postmarked. However, the
                                  Postal Service still has some challenges in:

                                      •   Gaining compliance from local election offices on
                                          time frames for delivering ballots.

                                      •   Educating local election offices on postage
                                          exemptions for overseas military absentee ballots.

 Effective Postmark               Military post offices are required to postmark all absentee
 Controls                         ballots at the time of mailing. During the 2000 election,
                                  some military absentee ballots were disqualified on the
                                  grounds they lacked postmarks. Postmarks indicate when a
                                  ballot was mailed and whether it is eligible to be counted.
                                  For the 2004 election, the MPS implemented procedures to
                                  ensure they gave each completed ballot a proper, legible
                                  postmark at the time of mailing. In cases where a ballot
                                  lacked a postmark, Postal Service employees were
                                  instructed to provide a postmark. Our observations of
                                  retrograde military absentee ballots showed either MPS
                                  clerks or Postal Service employees postmarked all of the
                                  military absentee ballots. In cases where the ballot did not
                                  have a postmark, we observed Postal Service employees
                                  affixing a postmark to the ballot.




                                                Postmarked military absentee ballots.




                                                   10
Processing of Overseas Military                                                                      NO-AR-05-007
 Absentee Ballots



 Tight Time Frames for            Over 50 percent of the prograde military absentee ballots
 Prograde Ballots                 processed by the Postal Service between September 20 and
                                  November 2, 2004, were received and sent overseas within
                                  30 days of the election. Because round-trip transit time for
                                  mail sent to the armed forces in support of overseas military
                                  operations can take up to 30 days, the Postal Service and
                                  the Federal Voting Assistance Program (FVAP)
                                  recommended local election offices mail ballots 45 days
                                  before the election. This would allow sufficient time for the
                                  ballots to be delivered, processed, and returned to local
                                  election offices before the election. Some reasons the
                                  ballots were mailed within 30 days of the election included
                                  late requests for a ballot by the military absentee voters, and
                                  delays resulting from legal decisions concerning the
                                  eligibility of third-party candidates. As a result, military
                                  absentee ballots mailed within 30 days of the election were
                                  at risk of not being counted.


                                        Chart 3. Prograde Military Overseas Absentee Ballots Processed
                                                  Between September 20 and November 2, 2004



                                          46.3%                                                    53.7%




                                                               More than 30 Days before Election


                                                               Within 30 days of Election




 Unnecessary Payment              Some local election offices affixed postage to military
 of Postage                       absentee ballots. According to Postal Service policies, mail
                                  from election offices and from members of the armed forces,
                                  their spouses, and dependents is exempt from payment of
                                  postage for ballot materials. Envelopes containing ballot
                                  materials should include the label “Official Absentee
                                  Balloting Material–First-Class Mail,” “No Postage Necessary
                                  in the U.S. Mail.” Some local election officials were
                                  unfamiliar with this policy.



                                                    11
Processing of Overseas Military                                                         NO-AR-05-007
 Absentee Ballots



                                  As a result, the Postal Service incorrectly collected postage
                                  on military absentee ballots.




                                  Postage affixed on upper ballot and MPO postmark on lower ballot.


 Suggestions                      We suggest the vice president, Network Operations
                                  Management, instruct Postal Service election coordinators
                                  to:

                                      3.   Provide feedback to local election officials, the
                                           Military Postal Service, and military service
                                           members on the importance of adhering to time
                                           frames for requesting and mailing absentee ballots.

                                      4.   Inform local election officials of the military postage
                                           exemption for balloting materials.

 Management’s                     Management generally agreed with our suggestions.
 Comments                         However, they indicated the FVAP office–not the Postal
                                  Service–is the preferred organization to address the
                                  suggestions.

 Evaluation of                    Given the rationale provided, we consider management’s
 Management’s                     comments responsive to our suggestions.
 Comments




                                                    12
Processing of Overseas Military                                              NO-AR-05-007
 Absentee Ballots



                    APPENDIX A. SAMPLING METHODOLOGY

 Summary of Methodology for First-Class Mail Pieces

 For the retrograde military ballots mailed as First-Class Mail, Postal Service applied
 “as many PLANET Codes as they could” each day for one week, without regard to the
 destination of the mailpiece. For purposes of this review, we consider the application
 to be essentially random within each ISC because military ballot mail for all
 destinations was mixed together daily rather than sorted at the point where the codes
 were applied, and auditor observations indicate the assumption of a destination mix is
 reasonable. We also have no information to suggest the mix was different in
 character from one day to another. Unreliable universe data does suggest, however,
 that there may have been significant differences in the volumes of military ballot mail
 by ISC, and also suggest that the proportions of mailpieces coded at each ISC are not
 at all similar. Therefore, we considered the total coded mail in the week in aggregate
 for each ISC independently, and we reported the on-time percentage by ISC.
 Because we have no reliable data on the universe of military ballot mail at each ISC,
 we cannot determine appropriate weighting factors to combine the three ISC results
 into an overall projection.

 Summary of Methodology for Express Mail Pieces

 For the retrograde military ballots mailed as Express Mail, the Postal Service provided
 a database of the acceptance scan and delivery scan information for a total of
 5,138 mailpieces having an acceptance scan at one of the three ISCs. For each of
 these mailpieces, the delivery time was compared to the First-Class Mail delivery
 standard corresponding to the ISC and destination combination for that mailpiece.
 The summary results include all 5,138 pieces.




                                           13
Processing of Overseas Military                             NO-AR-05-007
 Absentee Ballots


                        APPENDIX B. MANAGEMENT’S COMMENTS




                                     14
Processing of Overseas Military        NO-AR-05-007
 Absentee Ballots




                                  15
Processing of Overseas Military        NO-AR-05-007
 Absentee Ballots




                                  16
Processing of Overseas Military        NO-AR-05-007
 Absentee Ballots




                                  17
